NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



         MATERIAL LOSS REVIEW OF
        MEMBERS UNITED CORPORATE
          FEDERAL CREDIT UNION

             Report #OIG-11-01

                May 4, 2011




             William A. DeSarno
             Inspector General


                Released by:




              James W. Hagen
           Deputy Inspector General
CONTENTS


  Section                                              Page



            ACRONYMS AND ABBREVIATIONS                  ii


     I      EXECUTIVE SUMMARY                           1


     II     INTRODUCTION AND BACKGROUND                 5


    III     OBJECTIVES, SCOPE AND METHODOLOGY           9


    IV      RESULTS IN DETAIL                           11


               A. Why NCUA Conserved Members United
                                                        11
                  Corporate Federal Credit Union


               B. NCUA Supervision of Members United
                                                        24
                  Corporate Federal Credit Union

   APPENDIX

     A      NCUA Management Comments                    34




                                                              i
ACRONYMS AND ABBREVIATIONS

ALCO           Asset/Liability Committee
CRIS           Corporate Risk Information System
Crowe          Crowe Horwath LLP
DANA           Daily Average Net Assets
DOR            Document of Resolution
Empire         Empire Corporate Federal Credit Union
FCU            Federal Credit Union
FICO           Fair Isaac Corporation
FRAP           Floating Rate Asset Program
Guide          NCUA Corporate Exam Guide
IAP            Investment Action Plan
Mid-States     Mid-States Corporate Federal Credit Union
MLR            Material Loss Review
NCUA           National Credit Union Administration
NCUSIF         National Credit Union Share Insurance Fund
NEV            Net Economic Value
NPCU           Natural Person Credit Union
NRSRO          Nationally Recognized Statistical Rating
OCCU           Office of Corporate Credit Unions
OCI            Other Comprehensive Income
OCM            Office of Capital Markets
OIG            Office of Inspector General
OTTI           Other-than-temporary Impairment
RMBS           Residential Mortgage-backed Securities
SIP            Credit Union System Investment Program
SMSIA          Standard Maximum Share Insurance Amount
TCCUSF         Temporary Corporate Credit Union Stabilization Fund
U.S. Central   U.S. Central Federal Credit Union




                                                                     ii
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review
(MLR) of Members United Corporate Federal Credit Union (Members United), a
federally chartered credit union. We reviewed Members United to (1) determine
why NCUA placed Members United under federal conservatorship; (2) assess
NCUA‟s supervision of the corporate credit union, and (3) make appropriate
recommendations to prevent future losses. To achieve these objectives, we
analyzed NCUA examination and supervision reports and related correspondence;
interviewed management and staff from the NCUA Office of Corporate Credit
Unions (OCCU) and Office of Capital Markets (OCM); reviewed NCUA guides,
policies and procedures, and NCUA Call Reports (Corporate 5310 Reports).1

Our review determined Members United‟s management and Board of Directors
(Board) contributed to the conservatorship of Members United and resulting
material loss to the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF). Specifically, management and the Board‟s inadequate oversight
resulted in Members United purchasing significant holdings of private-label
mortgage-backed securities, many of which were later downgraded to subprime2
and Alt-A,3 that exposed the credit union to excessive amounts of financial risk.
Members United‟s management and the Board failed to identify and manage this
risk exposure prior to the mortgage-backed securities market dislocation that
occurred in mid-2007.4 Specifically, in regards to managing the investment
portfolio, Members United management:

            Did not establish investment sector concentration limits in a timely
             manner;

            Relied heavily on ratings assigned to the securities by Nationally
             Recognized Statistical Rating Organizations (NRSRO) when purchasing
             securities for the portfolio and when monitoring the amount of credit risk



1
  Section III of Crowe‟s report provides further details on the Objectives, Scope, and Methodologies utilized.
2
  Private-label subprime is a classification of mortgages where borrowers have a tarnished or limited credit
history. Subprime borrowers are often identified by having a FICO credit score below 640. Subprime loans
carry more credit risk, and as such, carry higher interest rates as well.
3
  Alt-A is a classification of mortgages where the risk profile falls between prime and subprime. The borrowers
behind these mortgages typically have clean credit histories, but the mortgage itself generally has some issues
that increase its risk profile. These issues include higher loan-to-value and debt-to-income ratios or inadequate
documentation of the borrower's income.
4
  The market dislocation refers to events, which began in 2007 and continued into 2009, when securities
collateralized by mortgages, typically considered sub-prime, began to lose value due to high borrower defaults
in the underlying mortgages and declines in value of the property securing those mortgages. Because of this
market dislocation, mortgage-backed securities, which were initially high rated, were downgraded to reflect the
greater risk in the underlying mortgages. The value of the securities declined due to the downgrades and
trading in these securities eventually halted in mid-2007. The problems in the subprime mortgage market were
largely blamed on loose lending practices, low interest rates, a housing bubble, and excessive risk taking by
lenders and investors.
                                                                                                                1
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



             in the investment portfolio; Relied on monoline insurers5 to provide credit
             enhancement to a portion of the non-agency mortgage-backed securities
             in the portfolio;

            Did not properly identify and monitor credit risk exposure in the
             underlying mortgage loan collateral of the mortgage-backed securities
             held in the investment portfolio; and

            Relied on the corporate credit union structure to provide financial strength
             and liquidity.

Members United achieved growth over the years through mergers with three other
retail corporate credit unions. In mid-2006, a merger of Mid-States and Empire
Corporate Federal Credit Union created Members United. As of December 31,
2006, Members United‟s assets totaled $10 billion.

Members United‟s management and Board failed to recognize the substantial risk
they were undertaking with significant investments in complex mortgage-backed
securities, with a substantial portion of these securities backed by subprime assets.
Management allowed the investments in mortgage-backed products to represent a
significant concentration compared to net worth and they failed to impose limits in
these securities. Management and the Board also did not adequately recognize the
credit risk associated with the underlying collateral, much of which was subprime
and Alt-A mortgage loans, including home equity loans. Once the investments
deteriorated in value, Members United management had no course of action for
divestiture of the securities other than to sell the securities at extreme discounts.

Members United suffered substantial losses due to other-than-temporary market
value impairment on their holdings of mortgage-backed securities in 2008, 2009
and early 2010, which quickly eroded the credit union‟s net worth and net economic
value (NEV)6 and eventually led to conservatorship.

Members United recorded Other Than Temporary Impairment (OTTI)7 charges of
$608 million from 2008 through July 2010. These charges resulted in an undivided
earnings deficit. Members United had to deplete its member-contributed capital to
eliminate the undivided earnings deficit. The retained earnings and membership
capital dollars declined from $884 million at the end of 2007 to $18 million at
July 31, 2010. The retained earnings ratio declined to 0.05 percent and the capital
ratio8 to 0.22 percent.


5
  An insurance company that provides guarantees to issuers, often in the form of credit wraps, that enhance the
credit of the issuer.
6
  Net Economic Value measures the economic solvency of a corporate credit union. It is defined as “the fair
value of assets minus the fair value of liabilities (12 C.F.R 704.2).
7
  OTTI is an accounting requirement under GAAP. The premise for OTTI is that certain price declines are not
temporary, but reflect fundamental losses in a security that are considered to impair the security‟s long-term
value.
8
  The capital ratio includes retained earnings and membership capital accounts.
                                                                                                             2
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



On September 28, 2010, the NCUA Board created the Members United Bridge
Corporate Federal Credit Union (Members United Bridge) to facilitate the transfer of
assets, liabilities, and contracts upon liquidation of Members United. On that same
date, the Director, OCCU, placed the credit union into conservatorship.

On October 31, 2010, the NCUA Board liquidated Members United. The liquidation
was necessary in order to allow OCCU to implement the corporate system
resolution plan. The liquidation action was necessary to remove the privately
issued mortgage-backed securities from Members United‟s balance sheet so the
corporate system resolution plan could be executed.

NCUA Supervision of Members United

We determined NCUA failed to adequately assess or timely identify key risks
related to Members United‟s investment portfolio related to the concentration of
mortgage-backed securities, until it was too late. We also determined the lack of
adequate and timely oversight of Members United was partially attributable to
corporate examiners not having the appropriate regulatory support, such as more
specific investment concentration limits, to adequately address Members United‟s
concentration risk and the exposure to credit, market, and liquidity risks.

We determined the first time examiners commented on issues related to sub-prime
mortgage-backed securities held in Members United‟s investment portfolio was in
the August 2007 examination report. The examination report indicated Members
United held approximately $4.9 billion of mortgage-backed securities in its portfolio.
As of August 31, 2007, $1.2 billion of these securities were considered sub-prime
and $2.1 billion were in Alt-A mortgage-backed securities. This represented 67
percent of the mortgage-related securities held in the portfolio. Although examiners
noted Members United management adequately monitored the sub-prime mortgage
exposure and underlying collateral value of these securities and that capital was
sufficient to cover the exposure even under stressed conditions, examiners did not
raise supervisory concerns or issue a document of resolution (DOR) related to the
sub-prime nature of the mortgage-backed securities at that time.

In the May 2008 examination report, examiners issued stronger concerns regarding
Members United‟s significant concentration in mortgage-backed securities and
issued a DOR recommending that management re-evaluate the appropriateness of
the existing concentration limits given the recent unprecedented market dislocations
in the mortgage-backed securities markets. As of the date of the examination,
Members United had already recorded significant fair value losses due to the
deteriorating value of the mortgage-backed securities.

We believe stronger and timelier supervisory action regarding Members United‟s
concentration in mortgage-backed securities could have resulted in a reduced loss
to the TCCUSF. Although NCUA does not provide examiners with specific
guidance regarding sector concentration limits, we believe NCUA examiners should
have recognized the risk exposure that Members United‟s significant concentration
                                                                                    3
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



in mortgage-backed securities represented earlier than 2007 and 2008. Similar to
Members United‟s management, NCUA also placed significant reliance on the high
ratings assigned by the NRSRO on the purchased mortgage-backed securities, and
failed to recognize Members United‟s exposure to significant concentration risk due
to the lack of diversification in their investments.




                                                                                  4
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Introduction and Background

The National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) contracted with Crowe Horwath, LLP (Crowe) to conduct a Material Loss
Review (MLR) for Members United Corporate Federal Credit Union (Members
United) as required by Section 216 of the Federal Credit Union Act (FCU Act),
12 U. S. C. 1790d(j).

History of Members United Corporate Federal Credit Union

In 1975, Members United received a federal charter as Mid-States Corporate
Federal Credit Union (Mid-States). Members United‟s membership is the result of
several mergers. Mid-States merged with Indiana Corporate Federal Credit Union,
Minnesota Corporate Federal Credit Union, and Empire Corporate Federal Credit
Union (Empire). Prior to its merger with Mid-States, Empire merged with Garden
State Corporate Federal Credit Union, Rhode Island Corporate Federal Credit
Union, and South Dakota Corporate Federal Credit Union. In April 2006, after its
merger with Empire, Mid-States received approval to change its name to Members
United. Subsequent to the Empire, Mid States merger, Central Credit Union Fund
also merged into Members United during late 2007.

With a membership of 2,053 “natural person” credit unions (NPCUs), Members
United served approximately one-quarter of the 7,600 NPCUs in the United States.
As of July 31, 2010, Members United managed approximately $9 billion in assets
for its members.

Members United was a mid-tier retail corporate credit union within a three-tiered
structure of the Nation‟s credit union system. The mid-tier retail corporate credit
unions provide liquidity, as well as a range of transactional products and services,
to the bottom tier, which consists of the NPCUs. The NPCUs invest their excess
funds in a corporate credit union. The invested funds are drawn down to meet
increasing liquidity demands due to member loan demand and share withdrawals.
The retail corporate credit unions in turn invest much of their excess liquidity in
investment securities and the third-tier wholesale corporate credit union, U.S.
Central Federal Credit Union (U.S. Central). The retail corporate credit unions draw
down on those investments as demands for liquidity from their NPCU members
increase.

NCUA‟s Evaluation of Investment Activities

Members United invested members‟ liquid funds primarily in investment securities
and interest-earning deposits at U. S. Central. These investments represented
approximately 80 to 90 percent of Members United‟s total assets from
December 31, 2005 through December 31, 2008; before declining to approximately
60 percent in 2009. This decline was due to the continued devaluation of
mortgage-backed securities held in the portfolio, decrease in reinvestment of

                                                                                   5
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



securities‟ proceeds as they matured, and greater retention of cash to meet
members‟ liquidity needs.

The investment securities portfolio consisted primarily of mortgage-backed and
asset-backed securities, which ranged from approximately 74 to 89 percent of the
total securities portfolio from December 31, 2005 through December 31, 2009, and
as of September 30, 2010 as illustrated in Chart 1 (below).

Chart 1: Members United’s Investment Securities Portfolio Composition

   100%
    90%
    80%
    70%
    60%                                                         Other Securities
    50%                                                         Commercial Debt Obligations
    40%                                                         Asset-Backed Securities
    30%                                                         Mortgage-Backed Securities
    20%
    10%
      0%
            2005    2006    2007    2008    2009    2010


Source: NCUA 5310 Reports as of December 31, 2005, 2006, 2007, 2008 and 2009; and as of
September 30, 2010


Members United also invested a significant amount of funds with U.S. Central for
purposes of meeting the short-term liquidity needs of their members. Chart 2
(below) indicates the percentage of Members United funds held at U.S. Central as a
percent of total assets from December 31, 2005 through December 31, 2009, and
as of September 30, 2010. These deposits were primarily in the form of interest-
earning share and certificate accounts. Share accounts are readily available for
liquidity purposes while certificates contain contractual maturity dates.




                                                                                              6
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Chart 2: Deposits Held At U.S. Central Federal Credit Union


                    Members United Deposits Held at U.S. Central
                              as a % of Total Assets
   50.00%

   40.00%

   30.00%

   20.00%

   10.00%

    0.00%
             2005          2006        2007         2008         2009   2010


Source: NCUA 5310 Reports as of December 31, 2005, 2006, 2007, 2008 and 2009; and as of
September 30, 2010

As depicted in Chart 2 above, deposits held at U.S. Central declined in 2008 and
2009 as Members United invested excess cash balances in shorter-term
investments at the Federal Reserve Bank. Balances held at the Federal Reserve
increased from approximately $51 million as of December 31, 2007 to $221 million
and $2.5 billion as of December 31, 2008 and 2009, respectively.

Beginning mid-2007, the mortgage-backed securities market experienced a
significant dislocation, which resulted in severe declines in the market value of
these types of structured securities. Trading of mortgage-backed securities was
substantially restricted later that year due to investors‟ uncertainty regarding the
quality and value of the underlying loans. Due to the market deterioration,
Members United‟s investment portfolio experienced significant declines in credit
ratings and market value.

As of December 31, 2007, Members United reported net unrealized losses on
securities of $356 million, compared with the prior year in which a small unrealized
gain was recorded. Members United‟s management decided not to recognize these
unrealized losses into income at that time because the securities were of high credit
quality (i.e., investment grade of AAA or AA) and Members United had the intent
and ability to hold these securities. Members United‟s management believed, at
that time, that the market dislocation that occurred in 2007 was temporary and the
fair value of the securities was expected to recover as the market volatility stabilized
and the demand for mortgage-backed securities returned.

As of July 31, 2010, Members United held marketable securities with a book value
of $4.2 billion. Of these $4.2 billion, approximately $2.2 billion or 52 percent had
fallen to non-investment grade ratings (rated BB or below) or were not rated.
                                                                                          7
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Members United recorded Other Than Temporary Impairment (OTTI) charges of
$608 million from 2008 through July 2010. These charges resulted in an undivided
earnings deficit. Members United had to deplete its member-contributed capital to
eliminate the undivided earnings deficit. The retained earnings and membership
capital dollars declined from $884 million at the end of 2007 to $18 million at July
31, 2010. The retained earnings ratio declined to 0.05 percent and the capital ratio
to 0.22 percent.

Members United posted a net loss of $1.2 billion in 2008, $295 million in 2009 and
$11.2 million through July 2010. Estimated losses through the end of 2010 due to
additional OTTI charges and the potential of selling investments at significant
losses to maintain liquidity were expected to completely deplete the remaining
capital and result in an undivided earnings deficit.

During this time, Members United‟s Net Economic Value (NEV) declined below
regulatory requirements. In July 2008, the Office of Corporate Credit Unions
(OCCU) approved Members United‟s NEV action plan for reducing unrealized
losses and raising additional capital. Due to the continued market dislocation, the
strategies for restoring the NEV above regulatory limits were ineffective. As of July
2010, the NEV ratio was -9.05 percent ($860 million) which was well below the 2
percent regulatory requirement.

The illiquidity of the mortgage-backed securities market severely impacted
Members United‟s ability to provide liquidity for its own and its members‟ needs.
The devaluation of these securities prevented Members United from selling these
securities held in their portfolio, other than at distressed prices, or using them as
collateral for borrowings.

Members United experienced further restrictions in its liquidity sources as
U.S. Central also realized losses resulting from the declining value of their own
mortgage-related securities portfolio and could not meet the liquidity demands of its
retail corporate credit union members.

In October 2008, NCUA implemented the Corporate Stabilization Plan, which
included several liquidity programs designed to provide funding to the corporate
credit unions through the Central Liquidity Fund. The Temporary Corporate Credit
Union Liquidity Guarantee Program stabilized Members United‟s remaining
unsecured borrowing sources. NCUA stabilization efforts continued with the
Temporary Corporate Credit Union Share Guarantee Program, which offered a 100
percent guarantee9 of a corporate credit union member‟s excess shares10 in a
participating corporate credit union. This move appeared to restore some
confidence in Members United when comparing the 42 percent decline in member

9
 The guarantee applies only to credit unions insured by the NCUSIF.
10
  The term excess shares means any shares in a qualifying share account that are in excess of the Standard
Maximum Share Insurance Amount (SMSIA), which does not include Member Capital and Paid-in Capital
accounts, or obligations that are not share obligations. Congress permanently increased the SMSIA to
$250,000.
                                                                                                             8
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



shares (non-capital accounts) between March and December 2008, with the 24
percent increase in 2009 and the 3 percent increase through July 2010.

On September 28, 2010, the NCUA Board created the Members United Bridge
Corporate Federal Credit Union (Members United Bridge) to serve as a transition
entity to provide uninterrupted services to Members United members. On that
same date, the Director, OCCU, placed Members United into conservatorship.

On October 31, 2010, the OCCU received NCUA Board approval to liquidate
Members United. The liquidation was necessary in order to allow OCCU to
implement the corporate system resolution plan. The liquidation action was
necessary to remove the privately issued mortgage-backed securities from
Members United‟s balance sheet so the corporate system resolution plan could be
executed.

Objectives, Scope and Methodology

We performed this material loss review to satisfy the requirements of the FCU Act,
which requires the NCUA OIG to conduct a material loss review of an insured credit
union if the loss to the NCUSIF11 exceeds $25 million.12 NCUA confirmed that as of
February 28, 2011 the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF) had recorded a loss of $400.1 million for Members United.
Consequently, in accordance with the FCU Act and Chapter 3 of the NCUA Special
Assistance Manual, NCUA OIG contracted with Crowe to conduct a material loss
review of Members United.

Our audit objectives were to: (1) determine the cause(s) of Members United‟s
conservatorship, (2) assess NCUA‟s supervision of the corporate credit union, and
(3) make appropriate recommendations to prevent future losses.

We conducted this review from December 2010 to May 2011 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained as described in the Scope and Methodology


11
   On May 20, 2009, Congress enacted the Helping Families Save Their Homes Act, which amended the
Federal Credit Union Act to create the Temporary Corporate Credit Union Stabilization Fund (TCCUSF). The
TCCUSF established a process for attaining funds to pay costs associated with the corporate credit union
stabilization by borrowing from the U.S. Department of the Treasury and repaying the borrowed funds with
assessments of all federally insured credit unions over a seven-year period. One of the costs incurred to
stabilize the corporate credit unions included guaranteeing the natural person credit unions‟ deposits in the
corporate credit unions. The payment of the insured amounts in a liquidating corporate credit union is primarily
a liability of the NCUSIF. However, the TCCSUF legislation allows the NCUA Board to use the TCCSUF to
make the payment.
12
   The FCU Act, 12 U.S.C. § 1790d, §216(j) requires that the OIG conduct a review when the NCUSIF has
incurred a material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of
$25 million and (2) an amount equal to 10 percent of the total assets of the credit union at the time at which the
Board initiated assistance or was appointed liquidating agent.
                                                                                                                 9
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



section, provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The scope of this audit included an analysis of Members United from
January 1, 2006 to September 28, 2010, the date the NCUA placed the credit union
in conservatorship. Our review also included an assessment of NCUA regulatory
supervision of the institution during the same period. In determining why NCUA
placed Members United in conservatorship, we did not analyze any potential impact
the actions of third-party providers. This included, but was not limited to
underwriters, issuers, or NRSROs that may have impacted the losses sustained by
Members United to the TCCUSF.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

           We analyzed NCUA examination and supervision contact reports and
            related correspondence and workpapers contained within the
            examination databases.

           We interviewed management and/or staff from NCUA‟s OCCU and Office
            of Capital Markets (OCM) and reviewed NCUA guides, policies and
            procedures, as well as NCUA Call Reports (Corporate 5310 Reports).

           We reviewed Members United data and correspondence maintained at
            the NCUA in Alexandria, VA as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA
OCCU officials, including information and other data collected during interviews.
We relied on our analysis of information from management reports, correspondence
files, and interviews to corroborate data obtained to support our audit conclusions.
We conducted interviews to gain a better understanding of decisions made
regarding the activities of credit union management and the NCUA‟s supervisory
approach, and to clarify information and conclusions contained in reports of
examination and other relevant supervisory correspondence between the NCUA
and Members United. Crowe relied on the information provided in the interviews
without conducting additional specific audit procedures to test such information.




                                                                                 10
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Results in Detail

We determined that Members United‟s management and Board of Directors (Board)
contributed to the conservatorship and resulting material loss. Further, we
determined that the NCUA13 could have reduced the loss to the TCCUSF had they
adequately assessed and more aggressively pursued resolution to issues related to
Members United‟s high credit risk and concentration in its investment portfolio.

A. Why NCUA Conserved Members United Corporate Federal Credit Union

Members United conservatorship can be attributed, in part, to inadequate
management and Board oversight that exposed the credit union to excessive
amounts of financial risk due to significant holdings of private label mortgage-
backed securities including subprime and Alt-A mortgage-related securities.
Members United‟s management and Board failed to identify and manage this risk
prior to the severe market value decline that occurred starting in mid-2007 and
became more severe in 2008 and 2009. Specifically, in regards to managing the
investment portfolio, Members United management:

            Did not establish investment sector concentration limits in a timely
             manner;

            Relied heavily on ratings assigned to the securities by Nationally
             Recognized Statistical Rating Organizations (NRSRO) when purchasing
             securities for the portfolio and when monitoring the amount of credit risk
             in the investment portfolio;

            Relied on monoline insurers to provide credit enhancement to a portion of
             the non-agency mortgage-backed securities in the portfolio;

            Did not properly identify and monitor credit risk exposure in the
             underlying mortgage loan collateral of the mortgage-backed securities
             held in the investment portfolio; and

            Relied on the corporate credit union structure to provide financial strength
             and liquidity. Members United invested excess funds at U.S. Central
             Federal Credit Union for short-term liquidity needs and had its only line of
             credit with U.S. Central. U.S. Central also had a concentration of
             mortgage-backed securities in its portfolio and experienced its own
             liquidity problems due to losses related to these mortgage-backed
13
   Primary supervisory responsibility of corporate credit unions lies with OCCU. In addition, OCM develops
agency policies and procedures related to credit union investments and asset liability management. OCM also
assists OCCU examiners in evaluating investment and asset liability management issues in credit unions. We
reviewed OCM„s role in the examination of Members United during the August 2005 through July 2009
examinations and determined that prior to the August 2007 examination, OCM„s assistance was primarily used
for reviewing Asset/Liability Management. The August 2007 examination marked the first significant
involvement of OCM staff in reviews specifically addressing the concentration and credit quality of MU‟s
investment portfolio, which was near the start of the market dislocation.
                                                                                                         11
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



            securities. Members United did not adequately evaluate the risk of
            investing with and limiting its borrowing facilities with U.S. Central.

These factors led to increased exposure to higher risk investments largely secured
by subprime and Alt-A mortgage loan collateral, including exposure at U. S. Central
due to its significant concentration of mortgage-backed securities. The
concentration in mortgage-backed securities left Members United vulnerable to
downturns in national and local economic conditions and the decline in the
residential real estate market. Members United‟s Board and management failed to
adequately diversify the investment portfolio and secure other sources of liquidity
outside of the credit union structure.

The consequences of Members United‟s management and Board‟s inadequate
oversight were:

       Substantial unrealized losses recorded to capital related to the deterioration
        of the market value of mortgage-backed securities held in Members United‟s
        investment portfolio. According to Members United‟s 2007 audited financial
        statements, unrealized losses in the investment portfolio continued to grow
        as Members United‟s management and Board believed the securities were
        not other-than-temporarily impaired and did not record the fair market losses
        against income. Members United management subsequently recorded
        these losses in conjunction with the December 31, 2008, audited financial
        statements.

       Market value declines and ratings downgrades severely limited Members
        United‟s ability to sell mortgage-backed securities in the marketplace,
        hampering liquidity sources necessary to meet member credit union needs.
        Members United‟s ability to obtain funding sources on reasonable terms and
        costs became difficult due to the declining value of the securities portfolio
        which restricted them from having securities available to pledge against
        borrowings, leading to an unsatisfactory liquidity position.

       Downgrades to Members United‟s commercial paper credit rating eroded
        public confidence in Members United‟s debt, impeding efforts to issue debt to
        fund liquidity.

       Economic insolvency as Members United‟s NEV deteriorated due to the
        market value declines in the investment portfolio.

       In September 2010, NCUA placed Members United in conservatorship. In
        order to maintain public confidence in the corporate credit union system a
        long-term legacy asset resolution plan was executed by NCUA. This plan
        isolated Members United‟s legacy assets from assets necessary to continue
        normal member services. NCUA created Members United Bridge to hold the


                                                                                      12
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



        non-legacy assets and immediately place the credit union into
        conservatorship.

Table 1 (below) summarizes selected financial information for Members United:

Table 1
                              Key Financial Data and Ratios ($000's)


                                        12/31/2006       12/31/2007     12/31/2008    12/31/2009

 Total Assets                             10,086,892       14,047,693     7,955,478    8,367,677

 Shares and Certificates                   8,680,145       10,108,750     7,457,483    9,238,127

 Interest-earning Deposits                 4,598,336        6,359,316     1,359,153      726,641

 Investments (amortized cost)              4,762,356        7,074,076     5,264,277    4,702,041
 Accumulated Unrealized
 Gains (Losses) from Available                  1,382       (355,905)   (1,172,917)   (1,117,214)
 for Sales Securities
 Borrowings and Repurchase
                                             415,397        3,191,760     1,879,095      166,312
 Agreements
 Total Member’s Equity (Deficit)             874,722          526,251   (1,534,212)   (1,116,260)
 Net Economic Value                          848,719          506,055   (1,260,525)   (1,116,417)
 Regulatory Capital Ratio                      9.40%            7.42%       (2.80%)        0.28%
 Retained Earnings Ratio                       3.30%            2.68%       (7.72%)      (1.37)%
 Net Income (loss)                              6,486          15,403   (1,208,210)     (253,512)

Source: Audited financial statements


As noted in Table 1, Members United‟s assets grew approximately 39 percent
between December 31, 2006 and December 31, 2007. Beginning in late-2006, the
significant asset growth began to outpace capital growth, resulting in declines to
Members United‟s capital ratio. Chart 3 (below) shows the effect of the significant
asset growth over the period from September 2006 through August 2007,
measured by Daily Average Net Assets (DANA), on Members United‟s capital
ratios.




                                                                                               13
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Chart 3: Effect of Asset Growth on Capital Ratios

     Assets                                                                     Capital (as a %)
   $11,000,000,000                                                                        10.00
   $10,500,000,000                                                                       9.50
   $10,000,000,000
                                                                                         9.00
    $9,500,000,000
                                                                                         8.50
    $9,000,000,000
                                                                                         8.00
    $8,500,000,000
    $8,000,000,000                                                                       7.50
    $7,500,000,000 De 00 6                                                               7.00




                   Ap 07
                     ar 7




                   Au 007
                     ct 6




                   Ja 0 6




                            07
                   No 0 6




                   Fe 07




                   M 00 7




                    Ju 07
                   Ju 07
                            0
                            0




                         20




                         20
                         20
                         20
                         20




                         20




                         20
                         20




                         20
                         2




                       l2
                      r2
                       v



                      n




                      n
                      b
                      c
                  p




                      g
                    ay
                Se

                   O




                   M            Moving Daily Average Net Assets         Capital Ratio


Source: August 2007 examination report

As stated in the August 2007 NCUA examination report, due to the increase in
DANA, both the retained earnings and capital ratios declined from the August 2006
examination. During this time, the retained earnings ratio declined from 3.36
percent to 2.87 percent and the capital ratio declined from 9.71 percent to 8.13
percent. Although the capital measures declined, actual dollars in undivided
earnings increased over the period but at a slower rate than DANA.

Subsequent to the merger between Mid-States and Empire, Members United
struggled to control its operating expenses and restore profitability to levels
experienced prior to the merger. Although operating expenses as a percent of
DANA did decline, they remained above their competitors. This resulted in
decreased profitability and less contribution to capital from earnings.

Members United’s Investment Strategy

Mortgage-Backed Securities

During the period from 2005 through September 2010, mortgage-backed securities
represented the majority of Members United‟s investment securities portfolio at
approximately 60 to 70 percent of the total portfolio. In 2006, mortgage-backed
securities represented a larger percentage of the portfolio, increasing to 71percent
of the total portfolio, due to the merger with Empire Corporate Federal Credit Union.
In 2007 and 2008, mortgage-backed securities declined to approximately 63
percent of the investment portfolio but rose to approximately 70 percent in 2009 and
2010 as non-mortgage-backed securities either matured, had principal paid down,
or were sold for liquidity purposes. Chart 4 (below) provides mortgage-backed
securities as a percentage of total investments.

                                                                                                   14
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Chart 4:

              Mortgage-Backed Securities as a Percent of Total Securities
     80.00%
     70.00%
     60.00%
     50.00%
     40.00%
     30.00%
     20.00%
     10.00%
      0.00%
                  2005           2006             2007         2008          2009           2010

                                             st
Source: NCUA 5310 Report as of December 31 and September 30, 2010


Due to the market dislocation, many of Members United‟s securities began to show
signs of deterioration in market value. As of December 31, 2007, Members United
reported net unrealized losses on securities of $356 million, compared with the prior
year in which a small unrealized gain was recorded. These unrealized losses were
identified as being primarily related to mortgage-backed securities, which
represented the highest percentage of the portfolio. Members United‟s 2007
financial statements revealed that management decided not to recognize these
unrealized losses into income at that time because management believed the
securities were of high credit quality (i.e., investment grade of AAA or AA) and
Members United had the intent and ability to hold these securities. Members
United‟s management believed that the market dislocation that occurred in 2007
was temporary and that the fair value of the securities was expected to recover as
the market volatility stabilized and the demand for mortgage-backed securities
returned.

Prior to the market dislocation in 2007, the majority of Members United‟s investment
securities portfolio consisted of highly rated, investment grade securities (i.e., rated
at BBB or higher). The August 31, 2007 examination report indicated that 94
percent of Members United‟s long-term holdings carried a rating of BBB or higher,
with approximately 83 percent of the securities carrying a rating of AAA. As
illustrated in Table 2 (below), securities carrying a rating of AAA declined to 66
percent and then to 42 percent as of the May 31, 2008 and July 31, 2009
examination reports, respectively. As of July 31, 2009, 26 percent of the securities
carried a rating below investment grade.14

14
  Members United was granted Part II Expanded Authority on September 11, 2007. Members United had not
purchased any investments rated BBB; however, due to downgrades, Members United held investments rated
BBB or below.
                                                                                                    15
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Table 2:


                      Investment Portfolio Breakdown by Credit Rating

                  August 31, 2007                    May 31, 2008                      July 31, 2009

               Amount         No.      %        Amount         No.       %        Amount         No.        %

 AAA        $5,717,233,457    324     82.78   $4,382,982,308   260      65.68   $2,345,509,407   169    41.88

 AA           $652,637,261       54    9.45   $1,358,299,826    88      20.36    $605,031,850     46    10.80


 A            $131,500,000       10    1.90    $260,222,786     18       3.90    $412,149,678     29        7.36

 BBB           $10,000,000       2     0.14    $164,842,121     18       2.47    $803,240,874     58    14.34
 BB                       -      0     0.00    $141,960,077      7       2.13    $196,232,583     12        3.50

                          -      0     0.00                -     0       0.00    $199,684,736      8        3.57
 B
 CCC                      -      0     0.00                -     0       0.00    $608,426,836     32    10.86
 CC                       -      0     0.00                -     0       0.00     $74,627,241      8        1.33
 D                        -      0     0.00                -     0       0.00     $44,480,322      2        0.79
 Unrated
 /Not         $395,495,845       90    5.73    $364,506,834     93       5.46    $310,907,318     87        5.55
 Rated
                                       100
 Total      $6,906,866,563    480             $6,672,813,952   484      100 %   $5,600,290,845   451    100 %
                                        %
Source: Reports of Examination

The August 31, 2007 Examination report noted that of the $4.9 billion in non-agency
mortgage-backed securities held in the portfolio, Members United had an uninsured
subprime exposure of $1.2 billion and $2.1 billion in Alt-A rated securities. As of
December 31, 2008, of the $3.9 billion of non-agency mortgage-backed securities
held, $1.0 billion were considered subprime and $1.7 billion were rated Alt-A. As of
December 31, 2009, subprime non-agency mortgage-backed securities equaled
$868 million and Alt-A non-agency mortgage-backed securities equaled $1.6 billion.
Table 3 (below) illustrates the composition of Members United‟s non-agency
mortgage-backed securities.




                                                                                                       16
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Table 3:


               Composition of Non-Agency Mortgage-Backed Securities
 (in $000’s)                           August 31, 2007      December 31,            December 31,
                                                            2008                    2009
 Non-agency, mortgage-backed                  $4,869,375          $3,933,346              $3,290,160
 securities
 Prime                                               33%                    30%                    26%
 Sub-prime                                           25%                    26%                    26%
 Alt-A                                               42%                    44%                    48%
 Source: August 2007 Report of Examination and Members United Portfolio Update (unaudited) as of
 December 31, 2008 and 2009

Members United‟s management relied heavily on monoline insurers to provide
credit enhancement to a portion of the non-agency mortgage-backed securities in
the portfolio to mitigate credit risk in the investment portfolio. Once the securities
deteriorated in value, the credit enhancement provided by the monoline insurers
proved to be largely worthless. Monoline insurers did not possess the ability to
honor the guarantee on the securities, so Members United‟s exposure to these
insurers proved costly. We believe that Members United did not fully evaluate the
level of credit enhancement provided by the monoline insurers or consider the
insurers ability to honor the substantial guarantees.

Table 4 (below) depicts Members United‟s exposure to these insurers as of the
2007 and 2008 examination dates.

Table 4:

                               Exposure to Monoline Insurers
               Guarantor                              August 31, 2007                   May 31, 2008
 AMBAC                                                     $443,151,656                 $418,488,426
 CIFG                                                       $24,600,006                  $19,005,170
 FGIC                                                      $300,989,402                 $225,945,306
 FSA                                                       $130,354,064                 $114,501,739
 MBIA                                                      $489,015,989                 $417,507,999
 XLCA/SGI                                                   $75,781,114                  $64,111,161
                  Total                                 $1,463,892,231               $1,259,559,801
 Source: Reports of Examination

The credit ratings of the monoline insurers dramatically declined from the August
2007 examination to the May 2008 examination, indicating that the insurer may not
be able to honor the guarantee issued on the mortgage-backed securities
purchased. Table 5 (below) details the credit ratings of the monoline insurers as of
the 2007 and 2008 examination dates.
                                                                                                    17
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Table 5:


                                 Monoline Insurer Credit Ratings
                               August 31, 2007                                 May 31, 2008
                          Moody’s            S&P                        Moody’s             S&P
 AMBAC                     Aaa               AAA                          Aa3                AA
 CIFG                      Aaa               AAA                          Ba2                A-
 FGIC                      Aa2                AA                         Caa2                B
 FSA/AGM                   Aaa               AAA                         Aaa**              AAA
 MBIA                      Aaa               AAA                          A2                 AA
 XLCA/SGI                  Aaa               AAA                          B2                 BB
 ** On review by Moody’s for possible downgrade. Source: Reports of Examination


The August 31, 2008 examination report further indicates that, as a direct result of
the downgrades in the credit ratings of the monoline insurers, Members United filed
investment action plans (IAPs)15 for 11securities.

As of December 31, 2009, net unrealized losses on the investment securities
portfolio totaled approximately $1.1 billion, or the equivalent of 47 times capital.
From December 31, 2008 through December 2009, Members United recorded
approximately $579 million in charges against income as Other-than-Temporary
Impairment (OTTI) related to the deterioration in the value of the investment
securities portfolio. In determining OTTI for 2009, Members United placed no
reliance on the insurance provided by XCLA/SGI, FGIG and CIFG, partial reliance
on AMBAC (25%) and maintained full reliance with FSA/AGM and MBIA as they
continued to be highly rated and timely paying claims.

Under the NCUA expanded authorities, granted to Members United under Part 704,
Members United was allowed to purchase and/or hold securities with long-term
credit ratings of BBB or higher. As of December 31, 2009, Members United owned
153 securities with a par value of $2.4 billion that had been downgraded below the
minimum rating requirement. As a result of these credit downgrades, Members
United filed the required IAPs with the NCUA requesting permission to continue to
hold the downgraded securities.




15
   When a corporate credit union is in possession of an investment that fails to meet one or more of the NCUA
requirements for permissible investments, the credit union is required to file a written investment action plan
(IAP) with the OCCU Director within 30 days of failure. The IAP addresses the investment‟s characteristics and
risks, process for obtaining and evaluating market value and cash flows, how the investment fits into the credit
union‟s asset/liability strategy, the impact of selling or holding the investment to the credit union‟s earnings,
liquidity and capital under different interest rate scenarios, and whether the investment may again meet
investment requirements. The OCCU Director may approve the plan or require a different course of action.
                                                                                                              18
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Deposits at U.S. Central

Members United had a significant amount of funds invested at U.S. Central.
Table 6 (below) depicts the different investment types and amounts:

Table 6:


                            Members United Investments at U.S. Central

                              Balance at                    Balance at                     Balance at
                              8/31/2007           %         5/31/2008           %          7/31/2009         %

 DAILY SHARES                 $930,808,321       22.45       $33,695,720        0.52      $355,693,458      27.04
 TIME
                            $1,768,132,661       42.65    $2,356,724,751       35.98      $552,168,329      41.98
 CERTIFICATES
 AMORTIZING
                               $64,040,441        1.54       $51,893,489        0.79        $33,629,441      2.56
 CERTIFICATES
 CALLABLE
                              $559,317,000       13.49      $303,836,000        4.64        $44,220,000      3.36
 CERTIFICATES
           16
 FRAPS                        $605,000,000       14.59      $258,000,000        3.94      $255,000,000      19.39
 MEMBER
                              $181,619,204        4.38      $228,191,233        3.48        $74,561,209      5.67
 CAPITAL SHARES
 PAID-IN CAPITAL               $36,980,000        0.89       $38,080,000        0.58                   $0    0.00
 FED FUNDS SOLD
                                            0     0.00    $3,279,818,294       50.07                   $0    0.00
 TO U.S. Central
 TOTAL                      $4,145,897,627      100 %     $6,550,239,487      100 %     $1,315,272,437      100 %
Source: Reports of Examination

Because U.S. Central had a significant amount of funds invested in mortgage-
backed securities, these investments at U.S. Central represented indirect credit
exposure related to investments in mortgage-backed securities. Members United,
when determining concentration limits in mortgage-backed securities, did not
consider this indirect exposure. We learned the CEO of Members United was also
on the Board of Directors for U.S. Central. As a result, we believe the CEO should
have been fully aware of U.S. Central‟s concentration in mortgage-backed
securities and the additional level of concentration risk. As of February 28, 2011,
Members United‟s losses at U.S. Central totaled $308.2 million.

Members United reduced its exposure to U.S. Central from May 31, 2008 to
July 31, 2009. We determined a portion of this reduction was related to Members
United‟s loss of Paid-in-Capital and depletion of their Members Capital Shares at
U.S. Central due to losses recorded related to the significant decline in market
value of U.S. Central‟s RMBS portfolio. Although, investments at U.S. Central

16
     FRAPS is a U.S. Central floating rate Certificate of Deposit program – Floating Rate Asset Program.
                                                                                                            19
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



added to the overall RMBS exposure at Members United, the Share Guarantee put
in place by the NCUA mitigated the impact of this exposure. As previously
explained, the Share Guarantee Program offered a 100 percent guarantee of a
corporate credit union member‟s shares in excess of the SMSIA.

Diminished Liquidity

To meet its short-term liquidity needs, Members United relied primarily on funds
invested and borrowed from U.S. Central. As of December 31, 2006 and 2007,
funds invested at U.S. Central represented just over 40 percent of Members
United‟s total assets. Prior to 2008, Members United had established lines of credit
with U.S. Central including a $3 billion advised line of credit and a $300 million
committed line of credit. Members United had no other lines of credit established
with any other corporate credit union or other financial institution.

In addition, U.S. Central authorized Members United to issue up to $1 billion in
commercial paper rated A-1+/P-1. Other borrowings included securities sold under
agreements to repurchase, deposits accepted under an agreement with the State of
Illinois and fed funds purchased from members. Members United also participated
in the Federal Reserve Bank‟s term investment option program and had borrowed
up to $300 million from this program prior to 2008.

As U.S. Central began to experience liquidity constraints due to losses resulting
from the declining value of their own mortgage-related securities portfolio, Members
United looked for additional sources of liquidity. During 2008, Members United
became a member of the Federal Home Loan Bank of Chicago. As a member of
the FHLB Chicago, Members United was provided with a line of credit for $240
million. Members United also established reserves at the Federal Reserve to
become a full member and allowing it access to the discount window. Additionally,
Members United established a deposit relationship with Citibank in an effort to
obtain future lines of credit and established a line of credit with Pacific Coast Bank.

Members United‟s capacity to borrow funds was further curtailed as the value of
Members United‟s RMBS portfolio continued to decline and their credit ratings were
downgraded by the nationally recognized statistical ratings organizations. In late
2008, both Standard and Poor‟s and Fitch Rating Service (Fitch) placed Members
United on their “negative watch” list. In 2009, Members United no longer
considered issuing commercial paper as a source of liquidity due to the
downgrades to their credit ratings and therefore, requested Standard and Poor‟s,
Moody‟s and Fitch to withdraw their commercial paper ratings.

As previously noted, in October 2008, NCUA implemented the Corporate
Stabilization Plan,17 which included several liquidity programs designed to provide


17
  The NCUA‟s Corporate Stabilization Program, approved in January 2009, consisted of a series of actions
designed to add stability to and strengthen corporate credit unions. The purpose of these actions was to
maintain liquidity, strengthen capital, and restructure the corporate system.
                                                                                                           20
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



funding to the corporate credit unions. The Corporation Stabilization Program
included the following efforts by the NCUA:

       Established a Temporary Corporate Credit Union Liquidity Guarantee
        Program by which the Insurance Fund guaranteed repayments of unsecured
        debt issued by a corporate between October 16, 2008 and June 30, 2009;

       Established a Temporary Corporate Credit Union Share Guarantee Program
        to build member confidence in the credit union system. The Share
        Guarantee extended the existing Insurance Fund coverage for corporate
        credit union‟s member share accounts beyond the $250,000 statutory limit to
        cover the entire balance of each such account.

The Temporary Corporate Credit Union Liquidity Guarantee Program stabilized
Members United‟s remaining unsecured borrowing sources. The Temporary
Corporate Credit Union Share Guarantee Program restored some confidence in
Members United when comparing the 42 percent decline in member shares
between March and December 2008, with the 24 percent increase in 2009 and the
3 percent increase though July 2010.

Management and Board Oversight of Members United‟s Investment Strategy

Based on our review of Members United‟s Policies, Asset/Liability Committee
(ALCO) reports and meeting minutes, and discussions with examiners, we
determined Members United‟s management and Board did not practice sound risk
management and created an environment of excessive spending, rapid expansion,
increased concentration risk, and a flawed overall strategic plan. Members United‟s
management permitted significant holdings of mortgage-backed securities without
fully understanding the credit risks associated with such complex investments and
the related risk this concentration posed on the ability of Members United to serve
its primary purpose of being a liquidity source for its members. The investment
portfolio had a significant level of credit risk associated with the large concentration
of mortgage-backed securities and was not adequately identified and managed by
its management and Board.

In addition, Members United management did not establish prudent sector
concentration limits to limit exposure to the underlying assets related to mortgage-
backed securities until late 2008. Management and the Board placed over-reliance
on the high credit ratings assigned by NRSRO that kept them from performing
further evaluation of the concentration and credit risks associated with their
investment purchases. In addition, management placed reliance on monoline
insurers and allowed monoline insurance to serve as a significant credit
enhancement to securities. This monoline insurance turned out to provide very
little, if any, support for a significant portion of the mortgage-backed securities as
they rapidly deteriorated in value.


                                                                                     21
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Members United‟s ALCO minutes indicated management was focusing on yields, to
allow them to service natural person credit unions. As previously noted, the merger
of Mid-States and Empire Credit Union effective June 30, 2006 created Members
United. From December 31, 2006 through December 31, 2007, total assets grew
by approximately 39 percent.

We determined the March 2007 ALCO minutes also reflected discussion related to
the stress in the markets related to subprime mortgage-backed securities.
Management‟s response to market deterioration was that the declines in the
securities were temporary and they expected the values to recover. Even though
the market had already started to display signs of stress, management continued to
purchase mortgage-backed securities until October 2007. The March 2007 ALCO
report indicated the following:

        “Portfolio activity continues to consist largely of floating rate securities
        purchases for the overnight book and improving returns on current
        excess cash balances. Approximately $650 million in investment
        purchases have been made during the month of February and over $1
        billion has been made year-to-date, with most purchases consisting of
        AAA residential ABS securities. The best relative value continues to
        reside in Alt-A collateral types, especially senior mezzanine AAA
        classes.”

In June 2007, management noted the following during the ALCO meeting:

        “Purchase activity has slowed somewhat in May with lower asset-
        backed securities (ABS) supply and recent changes in internal credit
        underwriting requirements for residential mortgage securities. As a
        result, purchases of USC term investments have increased and are
        expected to remain a greater portion of investment allocations over
        the near term. In addition to U.S. Central Federal Credit Union (U.S.
        Central) investments, purchase activity in commercial mortgage-
        backed securities (CMBS) investments is also expected to remain
        robust.”

As management began increasing their investments at U.S. Central, they were also
increasing their exposure and concentration in mortgage-backed securities. We
found no evidence that Members United considered the fact that their investments
in U.S. Central were exposed to the same market factors as their own RMBS,
because of U.S. Central‟s investment in similar products. It was not until October
2007 when the ALCO minutes reflected that management did start to recognize
concerns with the market dislocation and national economy. Per the October 2007
ALCO package:

        “Investment purchases have come to a virtual halt, as almost all
        member deposits and portfolio runoff is currently being maintained in
        cash. We are also actively tapping all available financing sources to
                                                                                       22
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



         ensure their availability through what is a typical seasonal trough in
         member liquidity. These transactions include term borrowings from
         U.S. Central, a limited number of term reverse repurchase trades,
         daily issuance in overnight and term commercial paper, periodic
         purchases of Fed Funds, and active participation in the TIO market.”18

The decisions and discussions reflected in the ALCO minutes throughout 2007
show management and the Board‟s lack of understanding regarding Members
United‟s risk related to the emerging market concerns regarding subprime and Alt-A
mortgage-backed securities, as well as Members United‟s significant exposure in
these types of securities. Their inability to adequately identify and manage this risk
prevented them from appropriately addressing the risk and taking steps to possibly
divest some of the assets and reduce exposure to further market value declines
and subsequent losses.

As the market dislocation continued, management initially failed to recognize how
serious the deterioration in the securities portfolio was and its potential impact on
the credit union‟s ability to remain solvent. For example, in the May 2008 report of
examination, examiners noted management‟s focus on creating a new
headquarters building for the company. We believe management should have
been more concerned with addressing the mounting losses in their holdings of
RMBS as well as deterioration in their investments in U.S. Central.

Our review of ALCO minutes noted that Members United did not establish any
concentration limits until October 2008, at which point the securities portfolio was
overly concentrated in mortgage-backed securities. The July 2009 ALCO package
revealed that although management had created sector limits in October 2008, they
did not monitor and report on the concentrations until July 2009. As noted in the
excerpt from the July 2009 ALCO minutes below, management knew they
exceeded sector limits as soon as they created them and was attempting to work
towards long-term goals of complying with recently created policies.

         “May 2009 month-end holdings in the non-agency residential
         mortgage-backed sector exceeded limits established in Policy
         (2.VIII.C.10.a and 2.VIII.C.b). Results showed nonagency [sic] RMBS
         as a portion of Total Investments at 41.57% versus the policy limit of
         20%, and non-agency RMBS as a portion of Total Marketable
         Securities at 62.34% versus the policy limit of 40%.

         Management Rationale: It was recently discovered that this policy
         violation failed to be included in prior compliance reports. This
         violation is the result of the creation and implementation in October
         2008 of non-agency RMBS sector limits that were significantly below
         current non-agency RMBS holdings. While these limits knowingly
18
  The Term Investment Option (TIO) is an investment opportunity offered to Treasury Tax and Loan (TT&L)
participants. The Treasury will frequently auction excess operating funds to participants for a fixed term and
rate determined through a competitive bidding process.
                                                                                                                 23
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



         created immediate policy violations, the intent behind the sector limits
         was to create a long-term target within which total non-agency RMBS
         risk exposures would be managed.”

The 2009 NCUA report of examination also pointed out corporate governance
issues. While the corporate governance issues in and of themselves are not the
primary factor that led to Members United‟s conservatorship, these issues reveal
the lack of management and the Board‟s focus on the well-being of the credit union.
Examiners noted the following items in the 2009 report of examination:

        Members United maintained a headquarters in Warrenville, Illinois and a
         major operations center in Albany, NY. Each of these corporate offices had
         significant independent functions, which led examiners to question the
         efficiency of the structure. Examiners believed the organization would be
         better served with one true location serving as corporate headquarters in
         which the CEO could lead the organization and spend the majority of his
         time. The CEO essentially split his time between Albany and Warrenville,
         which caused the examiner to further question the structure.

        The examination included several incidences where Members United
         violated policy on limits and approvals required for numerous expenditures
         such as life insurance, credit card reimbursements, and other expenses for
         travel for the CEO.

Additionally, although not specifically noted in a report of examination, the CEO of
Members United was also the Chairman of the Board at U.S. Central. Although this
was in-line with how corporate credit unions and the Boards are structured, there
are governance issues and inherent conflicts of interest with this practice, as
evidenced by Members United‟s investments in U.S. Central as discussed above.

B. NCUA Supervision of Members United Corporate Federal Credit Union

Supervisory Background

Members United, previously Mid-States prior to the merger with Empire,
consistently received Corporate Risk Information System (CRIS).19 Composite Risk
Ratings of 2 for both Financial Risk and Risk Management during the three annual
examinations prior to May 2008 examination, when the composite risk ratings were
downgraded to a 3. In the 2005 through 2007 reports of examination, examiners

19
  The Corporate Risk Information System (CRIS) is used to measure and report risk in the corporate credit
union system. As such, CRIS separates the assessment and communication of quantitative financial risk from
qualitative operational and managerial risks and assign individual Financial Risk and Risk Management
Composite and Component ratings. The Composite Financial Risk rating and its components represent the
degree of risk to Capital and Earnings. The ratings are defined as follows: 1 – Low Risk; 2 – Moderate
(Managed) Risk; 3 - High Risk; 4 – Excessive Risk; and 5 – Critical Risk. The Composite Risk Management
rating and its components represent the Quality of Policy or Risk Management Process. The ratings are
defined as follows: 1 – Exceptional; 2 – Acceptable; 3 – Minimally Acceptable; 4 – Inadequate; and 5 –
Seriously Deficient.
                                                                                                        24
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



noted strong capital levels in relation to risk profile, strong earnings performance,
low investment credit risk and NEV volatility, ample liquidity and alternative funding
sources and effective risk management practices as support for the 2 ratings.

The downgrades to both the Composite Financial Risk and Composite Risk
Management ratings from 2 to 3 during the May 2008 examination were made
based on downgrades to each of the five components of the Financial Risk
Composite rating. Examiners cited Members United‟s increased risk exposure
resulting from significant concentrations in RMBS securities and high accumulated
unrealized losses on available for sale securities resulting from the market
dislocation. Examiners further identified low capital levels in relation to this
increased credit risk, negative trends in the NEV ratio, NEV exposure and NEV
volatility measures due to continued securities devaluation and increased liquidity
risk due to current market conditions. In addition, growth in daily average assets
continued to outpace growth in capital, which further resulted in deterioration of
capital measurements.

The most significant downgrades as a result of the May 2008 examination were to
the Liquidity Risk and Credit Risk components. Liquidity Risk was previously rated
a 1 and was downgraded to a 4 due to the inability for Members United to sell a
majority of its marketable securities without experiencing substantial losses and the
inability to pledge marketable securities as a liquidity source due to pricing of the
securities at that time. Credit Risk was previously rated a 2 and was downgraded
to a 4 due to credit rating downgrades on the RMBS and monoline insurers who
provided credit enhancement to the RMBS that was now diminished.

Examiners also downgraded five of the seven components of the Risk Management
Composite Rating, including Capital Accumulation Planning, Liquidity Risk Rate
Management, Credit Risk Management, Operating Risk and Board Oversight and
Compliance. Examiners noted that although capital planning, budgeting, NEV
modeling and liquidity management is comprehensive and sufficient given normal
market conditions, current methods for monitoring exposures to credit and liquidity
risk may not be robust enough given the unprecedented decline in market values of
the significant holdings of RMBS.

As of June 30, 2008, accumulated unrealized losses exceeded Members United‟s
capital. Based on this fact, examiners concluded,

        “The board and operating management through policies and practices
        have positioned the corporate into an untenable liquidity and
        operational position. The lack of reasonable sector limits and an
        aggressive structuring of the portfolio in mortgage related securities
        contributed to the current operating difficulties. In the past corporate
        management has indicated comfort in the fact the investment portfolio
        was diversified by issuer or trust and type of RMBS. These limitations
        have proven ineffective. Adequate sector limitations must be

                                                                                    25
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



        established to ensure this type of concentration in the investment
        portfolio does not recur.”

As a result of the May 2008 examination, examiners issued a Document of
Resolution (DOR) stating that Members United‟s current and allowable RMBS
concentrations were excessive. The DOR called for the following action from
management:

        “Reevaluate the appropriateness of the existing concentration limit
        structure and the individual concentration limits within that structure
        given the recent credit and liquidity crisis in the RMBS markets.
        Special attention should be paid to the Non-Agency RMBS sector. It
        should be noted Members United’s ability to retain existing
        investments is solely governed by board established diversification
        limits at time of purchase.”

Further downgrades were made in April 2009 as a result of routine supervision
contacts from the period of November 2008 through March 2009. Both the
Financial Risk and Risk Management Composite ratings were downgraded from 3
to 4 due to further erosion of Members United‟s financial condition caused largely
by the continued deterioration in the value of it RMBS and management and the
Board‟s inability to implement strategies to manage the risks related to the RMBS
concentration during the market dislocation.

The Financial Risk Composite rating was eventually downgraded from a 4 to a 5 as
a result of the July 31, 2009 annual examination. Downgrades were made to three
of the five components of the Financial Risk Composite Rating, including Empirical
Capital Level, Earnings Risk and Credit Risk. Each of these components was
downgraded from 4 to 5 due to the fact that retained earnings and member paid-in-
capital (PIC) had been extinguished, members‟ capital was substantially depleted,
and significant losses were recognized due to OTTI charges recorded against
earnings.

The Risk Management Composite rating remained unchanged although Capital
Accumulation Planning, Liquidity Risk Rate Management and Board Oversight and
Compliance were downgraded from 3 to 4 while Credit Risk Management was
downgraded from 4 to 5. These downgrades were based on inadequate capital
planning and expense reduction, limited liquidity sources, governance issues
related to the CEO‟s performance and business expenses. Several DORs were
issued related to corporate governance, investment credit risk, asset/liability
management, accounting for capital leases, information security, funds transfer,
item processing and Automated Clearing House transactions.

Table 7 (below) provides the history of NCUA examinations and resulting CRIS
Composite ratings from 2005 through July 2009:



                                                                                  26
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Table 7:

                                    NCUA Examination History
 Report Issuance Date            09/17/09   04/08/09     09/04/08       12/06/07   12/07/06   12/12/05
 Exam As of Date                 07/31/09   12/31/08     05/31/08       08/31/07   08/31/06   08/31/05
 Exam Type                       Annual     Routine       Annual        Annual     Annual     Annual
                                            Contact
 Composite Financial Risk           5           4            3             2          2          2
 Component:
 Empirical Capital Level            5           4            3             2          1          2
 Earnings Risk                      5           4            3             2          2          2
 Interest Rate Risk                 3           3            3             2          2          2
 Liquidity Risk                     4           4            4             1          1          1


 Credit Risk                        5           4            4             2          2          1
 Composite Risk                     4           4            3             2          2          2
 Management
 Component:
 Capital Accumulation               4           3            3             2          2          2
 Planning
 Profit Planning and Control        4           4            2             2          2          2
 Interest Rate Risk                 2           2            2             2          2          2
 Management
 Liquidity Risk Management          4           3            3             2          1          1
 Credit Risk Management             5           4            3             2          2          2
 Operating Risk                     3           4            4             2          2          2
 Board Oversight, Audit &           4           4            3             1          2          2
 Compliance
Source: Reports of Examination

Supervisory Efforts to Identify and Correct Key Risks Were Not Adequate or Timely

We determined NCUA did not timely or adequately identify key risks related to
Members United‟s investment portfolio. Specifically, NCUA failed to identify and
require corrective action on the credit risk in Members United‟s investment portfolio
related to the concentration of mortgage-backed securities until May 2008. By that
time, severe market dislocation had occurred and Members United‟s significant
holdings of RMBS were experiencing rapid declines in value and were increasingly
illiquid. We believe stronger, more-timely supervisory actions and restrictions on
concentrations could have provided opportunities for reasonable divestiture of
investment securities without incurring significant realized losses, which eventually
caused the NCUA to conserve Members United.


                                                                                                     27
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



We also determined the lack of adequate and timely oversight of Members United is
partially attributable to NCUA not having appropriate regulatory support, such as
specific investment concentration limits, to adequately address Members United‟s
concentration risk and increasing exposure to credit, market, and liquidity risks. It
became apparent that examiners largely lacked the regulatory leverage to limit or
stop Members United‟s purchase of sub-prime RMBS, which would have likely
mitigated the rapid deterioration of Members United‟s financial condition and
mounting investment losses as a result of the extended credit market dislocation.

Prior to the August 2007 examination, NCUA noted no significant concerns
regarding Members United‟s investment function or its strategy to purchase large
amounts of securities backed by subprime RMBS, consistently citing the following
conclusion in examination reports:

        “The portfolio remains composed of highly rated, acceptably
        diversified, liquid financial assets consistent with Members
        United’s Expanded Authorities. Additionally, the depth and
        frequency of investment purchase and investment credit
        analysis is commensurate with risk exposures. The
        investment portfolio continues to present low to moderate
        liquidity, credit, and interest rate risks.”

We determined the August 2007 examination was the first time the OCCU
examiners commented on the level of sub-prime mortgage-backed securities held
in Members United‟s investment portfolio. The examination report indicated that
Members United held approximately $4.9 billion of mortgage-backed securities in its
portfolio as of August 31, 2007. Of these securities, $1.2 billion were considered
sub-prime (FICO score under 680) and $2.1 billion in Alt-A mortgage-backed
securities as of August 31, 2007, representing a total of 67 percent of the mortgage-
related securities held in the portfolio. Examiners noted that the sub-prime
mortgage exposure and underlying collateral value of these securities is adequately
monitored and capital was sufficient to cover the exposure even under stressed
conditions.

The August 2007 examination report also indicated that Members United‟s net
retained earnings declined from approximately $371.6 million as of August 31,
2006, to approximately $258.6 as of August 31, 2007 as a result of the
Accumulated Unrealized Loss on Available for Sale Securities increasing from
approximately $950,000 to approximately $124.3 million. We found no evidence of
supervisory concerns being raised or DORs issued as a result of the August 2007
examination despite the market dislocation and deterioration of the sub-prime
mortgage sector that began in mid-2007 and Member United‟s concentration of
mortgage-backed securities held in its portfolio. Examiners cited the following
conclusion in the examination report:




                                                                                  28
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



        “There have not been any material changes in the composition of the
        investment portfolio. Practices and personnel in the ALM/Lending
        (Investment) and Fixed Income Research have remained relatively
        stable. No issues were noted with the review or trends. Members
        United was proactive in keeping its members informed about its Sub-
        Prime Mortgage-Backed Securities exposure.”

We believe NCUA should have recognized the substantial concentration risk posed
by Members United‟s significant holdings in mortgage-backed securities, especially
the subprime and Alt-A mortgage related securities. The limits outlined in the
Members United‟s Fixed Income Credit and Investment Policy were in compliance
with NCUA Regulation Parts 704.5(c) and 704.6 - Credit Risk Management.
However, NCUA Regulations suggest that Members United should have
established concentration limits by sector prior to October 2008. The regulations do
not provide specific guidance regarding concentration limits other than for
investments in any single obligor, as follows:

        (4) Concentrations of credit risk (e.g., originator of receivables,
        insurer, industry type, sector type, and geographic).
        (c) Concentration limits—(1) General rule. The aggregate of all
        investments in any single obligor is limited to 50 percent of
        capital or $5 million, whichever is greater.

The NCUA Corporate Exam Guide (Guide), which was updated in March 2008,
discusses the varying degrees of credit risk in the investment portfolio including the
risk of the obligor or counterparty and the structure of the transaction (i.e., quality of
the underlying collateral, level of subordination and/or credit enhancements). The
Guide encourages examiners to ensure that corporate credit unions are properly
measuring, monitoring, reporting, and controlling credit risk; particularly complex
structured securities such as mortgage-backed securities, which may have
numerous components of credit exposure.

The Guide also discusses the affect of credit risk in the investment portfolio on NEV
and liquidity. For example, the Guide states in part,

        “…it is important for corporate credit unions to understand and
        monitor the impact to NEV of potential volatility in the market
        value of the investment portfolio. As NEV declines, the ability
        to meet members’ potential liquidity demands diminishes...”

The Guide further warns of the danger of focusing on high credit ratings and the
probability of default (i.e., the higher the rating the less the probability of default)
stating in part:

        “…Failing to recognize the impact on NEV of credit events other than an
        event of default ignores a major component of risk…”

                                                                                           29
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Based on our review, we believe examiners, as well as Members United
management, relied too heavily on credit ratings to determine credit risk in the
portfolio. Through interviews, we found that examiners and other NCUA staff did
not perform further analysis on the potential credit and liquidity risks associated with
Members United‟s significant holdings and concentrations of mortgage-backed
securities prior to 2008 because they were mostly AAA rated and included the
monoline insurer enhancement. Failure to further asses these risks prevented them
from recognizing earlier in the process, the inadequacy of management‟s
assessment and monitoring of credit risk in the investment portfolio due to the large
concentrations of mortgage-backed and asset-backed securities.

We determined increased supervisory oversight was warranted, in the form of:

       More timely supervisory action related to the credit risk in Members United‟s
        significant concentration in mortgage-backed securities. By the time the
        DOR was issued in September 2008 (Effective May 31, 2008), the mortgage-
        backed securities market had deteriorated to the point where these securities
        were no longer being actively traded. We believe had NCUA required
        Members United to perform more extensive evaluation on its securities
        concentrations and credit risk exposure prior to the market dislocation in
        2007, Members United may have had the opportunity to divest some of
        these securities or limit additional purchases of these securities.

       More authoritative guidance related to sector concentrations and identifying
        and monitoring risk related to the market value of securities through the NEV
        may have allowed NCUA to more effectively encourage Members United‟s
        management to more proactively address the significant risks associated
        with Members United‟s investment portfolio.

As stated earlier in this report, we believe NCUA‟s over-reliance on investment
ratings and credit enhancements provided by monoline insurance prevented them
from performing further evaluation on the significant risks that the large holdings of
non-agency mortgage-backed securities posed to the safety and soundness of
Members United and the credit union system as a whole. We also believe
substantial purchases of these investments by Members United and other corporate
credit unions should have prompted NCUA to review examiner guidance and
training to enhance on the ability of its examiners and analysts to evaluate risks
associated with the complex assets, the underlying assets securing the collateral,
and the level of support proposed by the monoline insurers. Accordingly, we are
making the following recommendations:

Recommendations

We recommend NCUA management:

    1. Provide corporate credit unions with more definitive guidance on limiting
       investment portfolio concentrations by security type (agency-backed versus
                                                                                     30
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



         non-agency backed securities), sector type (residential real estate versus
         non-residential real estate), and by supporting collateral (private label sub-
         prime, Alt-A, prime, exotic mortgage, etc.).

         Auditor’s Note: On September 24, 2010, the NCUA Board took several
         actions to reform the corporate credit union system under a stronger
         regulatory framework. One of those actions was to finalize major revisions to
         Part 704, NCUA’s rule governing corporate credit unions.20 The final rule
         includes new limitations on corporate credit union investments and credit
         risks, as well as asset-liability management controls, so that high
         concentrations of the types of investments as noted in this review, will not be
         permitted. Specifically, the final rule includes the following provisions which
         would have significantly reduced the losses experienced by Members
         United:

                 Prohibits investments in private label residential mortgage-backed
                  securities and subordinated securities.

                 Imposes specific concentration limits by investment sector.21

                 Eliminates Part II expanded authority, thus making “A-“ the lowest
                  possible rating for an NRSRO-rated investment purchase by a
                  corporate credit union with expanded investment authority. To qualify
                  for expanded investment authority, a corporate credit union must
                  achieve and maintain higher capital levels (i.e., a minimum of six
                  percent leverage ratio).

         The final rule also requires that a corporate credit union examine the
         NRSRO rating from every NRSRO that publicly rates a particular investment
         and only employ the lowest of those ratings. It further requires that at least
         90 percent of a corporate credit union’s investments be rated by at least two
         NRSROs.22


20
   The new corporate rule becomes effective 90 days after publication in the Federal Register. The revised rule
was published in the Federal Register on February 4, 2011.
21
   Sectors are defined as residential mortgage-backed securities, commercial mortgage-backed securities,
student loan asset-backed securities, automobile loan/lease assets-backed securities, credit card asset-backed
securities, other asset-backed securities, corporate debt obligations, municipal securities, money market mutual
funds, and an “all others” category to account for the development of new investment types. Sector limits are,
generally, 1) the lower of 500 percent of capital/25 percent of assets, or 2) the lower of 1000 percent of
capital/50 percent of assets (for less risky sectors).
22
   This requirement is in accordance with provisions of the Dodd-Frank Act. Section 939A of the Dodd Frank
Act requires every federal agency, prior to July 21, 2011, review existing regulations that require the use of an
assessment of the credit-worthiness of a security or money market instrument and any references to credit
ratings in such regulations. In addition, Section 939A requires agencies to modify regulations identified in the
review to remove any reference to, or requirement of, reliance on credit ratings; and substitute for such removal
with an alternative standard of credit worthiness as the agency determines appropriate. In February 2011,
NCUA issued a proposal that, if finalized, would remove all references to NRSRO credit ratings from all NCUA
regulations. (76 Federal Regulation 11164 - March 1, 2011). Generally, for purposes of the investment
limitations in the corporate rule, the proposal would replace the minimum NRSRO credit rating requirements
                                                                                                              31
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Management Response

Concur. Management agreed with the OIG‟s recommended action and has already
taken corrective action. Management explained the revised Corporate Credit Union
Rule, approved in September 2010, contains provisions prohibiting the purchase of
privately issued RMBS, and imposes stronger concentration limits.

OIG Response

Agree. Management‟s action taken to revise the Corporate Credit Union Rule
addresses the issue moving forward.

We recommend NCUA management:

    2. Institute requirements for corporate credit union board membership to
       eliminate conflicts of interest. Specifically, the NCUA should determine
       whether it is appropriate for retail corporate credit union board members to
       sit on the boards of the top-tier corporate credit unions.

         Auditor’s Note: Revisions to Part 704, require that the majority of a corporate
         credit union’s board members be representatives of NPCU members.
         Additionally, no person may sit on the boards of two or more corporate credit
         unions at the same time, nor may a single organizational member have more
         than one individual representative on the board at any given corporate credit
         union.23

Management Response

Concur. Management agreed with the OIG‟s recommended action and has already
taken corrective action. Management explained the revised Corporate Credit Union
Rule requires a majority of a credit union‟s board members be representatives of
natural person credit unions and limits a person serving on multiple corporate credit
union boards.

OIG Response

Agree. Management‟s action taken to revise the Corporate Credit Union Rule
addresses the issue moving forward.

We recommend NCUA management:

    3. Provide NCUA examiners training to identify higher risk assets, especially if
       those assets are higher yielding products that involve a higher level of

with a requirement that corporate credit unions conduct an internal credit analysis of each pending investment
purchase employing a given narrative standard of credit-worthiness.
23
   This provision of the revised rule will go into effect 36 months after publication in the Federal Register. NCUA
published the revised rule in the Federal Register on February 4, 2011.
                                                                                                               32
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



        sophistication and several counterparties. Additionally, outside of previously
        raised recommendations for sector limit concentrations and diversification,
        NCUA should consider off-site monitoring enhancements of Call Report data
        to identify rapidly increasing holdings of certain types of assets and ensure
        that examiners and credit union management fully understand the risks
        posed by the products. NCUA should require credit unions to perform stress
        testing or scenario analysis to evaluate potential losses in the event of
        market dislocations or adjustments to other economic conditions.
Management Response

Concur. Management agreed with the OIG‟s recommendation and stated that
improvements could be made in the areas of identification, reporting, and
monitoring of higher risk assets. Management explained that in addition to the
establishment and reporting of sector limits, the revised Corporate Credit Union
Rule prohibits certain high-risk assets that were primarily responsible for the credit
crisis. Management also explained regulatory stress tests, measuring interest rate
risk exposure, and weighted average life extension risk will assist in identification
and reporting of high-risk assets. Additionally, management explained they are
exploring the development of additional off-site risk monitoring reports to aid
examiners in identifying significant changes in risk exposures.

OIG Response

Agree. Management‟s actions taken and planned should address the issues
identified in the recommendation.




                                                                                     33
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01



Appendix A: NCUA Management Comments




                                                                        34
Material Loss Review of Members United Corporate Federal Credit Union
OIG-11-01




                                                                        35
